Supre

No. :

l(L6to'L
In The

Supreme Court of the United
States
Brian Burke, Petitioner
v.
New York City Transit Authority, Kristen
Nolan, esq., Leonard Akselrod, NYP Holdings,
DBA New York Post, Kathianne Boniello,
Respondents
On Petition For A Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

PETITION FOR A WRIT OF
CERTIORARI
Brian Burke
Petitioner pro se
145 East 23rd Street #4R
New York, NY 10010
646-434-8513
briantburke@gmail. com
Date 06/26/2019

Office o

1

QUESTIONS PRESENTED
1. Pleading standards generally and/or for Title
VII and/or 42 U.S.C. 1983 and/or ADA, with
regards to pro se parties
2. If a Defamation per se claim is blocked by First
Amendment opinion status when the
anonymous source holds facts unknown to
reader.
3. How false can a ‘fair and true report’ be under
NYS Civil Rights Law 74.
4. The pleading standards for Fair Labor
Standards Act.
5. The requirements to grant leave to amend.
6. The requirements/pleading standards to get
recognition of a claim of unconstitutionality for
a state statute and/or requirements for leave to
amend in that circumstance.

11

TABLE OF CONTENTS
Page
Questions Presented

i

Table of Contents

ll

Table of Authorities
Petition for a Writ of Certiorari

1

Opinions Below

1

Jurisdiction

2

Statutory Provisions Involved

3

Statement of Case

3-8

Reasons to Grant Writ

8-14

Conclusion

14

Appendix
Summary Orders 2nd Circuit

14-20

EDNYMemorandums & Orders 20-27

TABLE OF AUTHORITIES

Hi

1. March 29, 2019 Summary Order by the Second
Circuit.
2. Mandate entered April 5, 2019
3. Memorandum and Order from the EDNY,
dated May 18, 2018
4. 28 U.S.C. § 1367(c)(3)
5. 28 U.S.C. § 1915(a)
6. Coppedge v. United States, 369 U.S. 438 (1962)
7. January 30, 2017 Memorandum and Order
denying Motion for Reconsideration
8. Second Amended Complaint
9. January 25, 2017 Scheduling Order, EDNY
10. January 26, 2019 Petition for Rehearing
11.28 U.S. Code §01254
12. Rule 10 of Part III of The Rules of The
Supreme Court
13. Title 42, Chapter 21, § 1983
14. Title VII of the Civil Rights Act of 1964 (Pub.
L. 88-352) (Title VII),
15. Title 42, Chapter 21, § 1983. Civil action for
deprivation of rights
16. Fed. R. Civ. P. 12(b)6
17.NYS Workers Compensation case #G1278038
18. March 29, 2015 New York Post
19. Civil Rights Act of 1964 § 704(a), 42 U.S.C. §
2000e-3(a) (1994)
20. New York Civil Rights Law Section 74
21. G1278038 NYS Workers Compensation Board
Decision.

22. November 27, 2017 a Decision by New York
State Administrative Law Judge Donald Gill
under WCL 120
23. New York Workers' Compensation Law
Section 120
24. The case file for NYS WCL 120 Burke v.
NYCTA (Case #xxx-xx-xxxx (Petitioners Social
Security number
25. Pages 52-53 and 58-59 of Certified November
27, 2017 Hearing Transcript for WCL 120 case
Burke v. NYC
26. Defamation per se
27. Wage and Benefits Theft
28. Contract between NYCTA and TWU Local 100
29. Contractual Grievances (4)
30. First Amendment to the Constitution
(Federal)
31. Unpublished Opinions: A Convenient Means
to an Unconstitutional End ERICA
S.WEISGERB
32. Equal Protection Clause of the 14th
Amendment
33. Fair Labor Standards Act of 1938 29
U.S.C. § 203
34. Marbury v. Madison, 5 U.S. (1 Cranch) 137
(1803)
35. As of right Amended Complaint
36. Lundy v. Catholic Health Sys. of Long Island
37. Nakahata v. New York-Presbyterian
Healthcare Sys., 723 F.3d 15 192, 201 (2d Cir.
2013)
38. Opposition to NYCTA’s Motion to Dismiss
39. Harris v. Mills, 572 9 F.3d 66, 71-72 (2d Cir.
2009)
w

40. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007) iv
41. Americans with Disabilities Act of 1990
(ADA), 42 U.S.C. § 12101
42. McDonnell Douglas Corp. v. Green, 411 U.S.
792, 802 (1973)
43. Littlejohn v. City of New York, 795 1 F.3d 297,
311 (2d Cir. 2015)
44. Sista v. CDC Ixis N. Am., Inc., 445 F.3d 161,
169 (2d Cir. 2006)
45. Ashcroft v. Iqbal, 556 U.S. 662, 678,129 S. Ct.
1937,1949,173 L. Ed. 2d 868 (2009)
46. Vega v. Hempstead Union Free Sch. Dist., 801
F.3d 72, 85 (2d Cir. 2015)
47. Galabya v. N.Y.C. Bd. ofEduc., 202 F.3d 636,
640 (2d Cir. 12 2000)
48. Chambers v. Time Warner, Inc., 282 F.3d 147,
153 (2d Cir. 2002)
49. Dollinger v. N.Y. State Ins. Fund, 726 F. App’x
828, 831 (2d Cir. 2018)
50. Tolbert v. Smith, 790 F.3d 427, 439 (2d Cir.
2015)
51. Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 268,
273, 121 S. Ct. 1508, 1511, 149 L. Ed. 2d 509
(2001)
52. Holy Spirit Assn for Unification of World
Christianity v. N.Y. Times Co., 49 N.Y.2d 63,
67 (1979)
53. Shulman v. Hunderfund, 12 N.Y.3d 143, 150
(2009)
54. Steinhilber v. Alphonse, 68 N.Y.2d 283, 289 17
(1986)
55. Virgilio v. City of New York, 407 F.3d 105, 116
(2d Cir. 2005)
v

1

1

OPINIONS BELOW
On March 29, 2019 the following Order was entered
into the record by the Second Circuit “Appellant,
Brian Burke, filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc. The panel
that determined the appeal has considered the
request for panel rehearing, and the active members
of the Court have considered the request for
rehearing en banc. IT IS HEREBY ORDERED that
the petition is denied.” with regard to the timely
Petition for Rehearing, filed and served on February
26, 2019.
2. On February 12, 2019 a Summary Order was
Entered upholding the Memorandum and Order of
the EDNY, with the Mandate Entered on April 5,
2019.
3. On May 18, 2018 a Memorandum and Order was
Entered and filed “granting the motion to dismiss;
dismissing all federal claims in their entirety with
prejudice; declining to exercise supplemental
jurisdiction, pursuant to 28 U.S.C. § 1367(c)(3), over
any remaining state law claims; certifying pursuant
to 28 U.S.C. § 1915(a), that any appeal would not be
taken in good faith; and denying in forma pauperis
status for the purpose of any appeal. See Coppedge v.
United States, 369 U.S. 438 (1962); it is ORDERED
and ADJUDGED that the motion to dismiss is
granted; that all federal claims are dismissed in their
entirety with prejudice; that pursuant to 28 U.S.C. §
1367(c)(3), the Court declines to exercise
supplemental jurisdiction over any remaining state
law claims; that 28 U.S.C. § 1915(a), any appeal
would not be taken in good faith; and that in forma

2

2
pauperis status is denied for the purpose of any
appeal. See Coppedge v. United States, 369 U.S. 438
(1962.” See Judgement dated May 21, 2019.
4. On January 30, 2017 the EDNY Entered a
Memorandum and Order Denying Petitioner’s Motion
for Reconsideration.
5. On September 21, 2016 in a Memorandum and
Order (Entered/Filed 09/23/2016) the EDNY
Dismissed case, albeit allowing a Second Amended
Complaint.
5. On January 25, 2017 the EDNY Entered the
following “Full docket text: The proposed briefing
schedule [39] is approved and adopted. Defendants'
motion to dismiss will be served on or before March 3,
2017; any opposition by plaintiff will be served on or
before April 14, 2017; any reply by defendants will be
served on or before April 28, 2017.Once fully briefed,
the motion papers shall be filed pursuant to the
Court's Individual Rule III.D. Ordered by Judge Eric
N. Vitaliano on 1/25/2017. (Simeone, Julie)”

JURISDICTION
On January 12, 2019 a Summary Order was
Entered upholding the District Court’s Memorandum
and Order. On January 26, 2019 a timely Motion for
Rehearing was Filed and Served, and this was
Denied on March 29, 2019.
The Jurisdiction of this Court is invoked under 28
U.S. Code §D1254. Courts of appeals; certiorari;
certified questions, and Rule 10 of Part III of The
Rules of The Supreme Court “(a) a United States
court of appeals has entered a decision in conflict
with the decision of another United States court of
appeals on the same important matter; has decided
an important federal question in a way that conflicts

3

3
with a decision by a state court of last resort; or has
so far departed from the accepted and usual course of
judicial proceedings, or sanctioned such a departure
by a lower court, as to call for an exercise of this
Court’s supervisory power;

STATUTORY PROVISIONS INVOLVED
1. Title VII of the Civil Rights Act of 1964 (Pub. L.
88-352) (Title VII),
2 Title 42, Chapter 21, § 1983. Civil action for
deprivation of rights
3 Fed. R. Civ. P. 12(b)6 : (6) failure to state a claim
upon which relief can be granted
4 Fair Labor Standards Act of 1938 29 U.S.C. § 2035
5 Americans with Disabilities Act of 1990 (ADA), 42
U.S.C. § 12101

STATEMENT OF CASE
On February 26, 2001, Petitioner was hired off a
Civil Service list for the title of Train Operator. On
April 14 and 15, 2014 while operating trains full of
passengers, Petitioner was serially assaulted and
harassed by five different supervisors, at the behest
of the NYCT Department of Law, as Retaliation for
engaging in Protected Activity. These highly
dangerous acts, potentially injurious to perfectly
innocent, unknowing passengers, resulted in a
diagnosed injury to Petitioner (PTSD, etc.) for which
both treatment and substantiation (NYS Workers
Compensation case #G1278038) occurred. On March
29, 2015, as pure Retaliation1 a highly defamatory,
1 Civil Rights Act of 1964 § 704(a), 42 U.S.C. § 2000e-3(a) (1994)
states in relevant part: It shall be an unlawful employment
practice for an employer to discriminate against any of his
employees or applicants for employment... because he [the
employee] has opposed any practice made an unlawful
employment practice by this subchapter, or because he has

4

4
knowingly false (at least by the NYCT attorney(s)
who were the New York Post’s anonymous source(s)
as acknowledged in their pleadings) defamatory per
se, malicious, mendacious hit piece was published,
disseminated at Petitioner’s workplace and online,
resulting in additional (and intended) injury. Despite
the EDNY finding that the article, as least as far as
concerning the New York Post, was either not
defamatory, or alternatively granted absolute
immunity for being a “fair and true report2” and/or
covered under opinion under the First Amendment,
different findings after actual hearings, crossexamination of witnesses and a search for truth and
granting of Due Process, two Administrative Law
Judges, a WCB panel3 and the full NYS Workers
made a charge, testified, assisted, or participated in any manner
in an investigation, proceeding, or hearing under this
subchapter.
2 New York Civil Rights Law Section 74 - Privileges in action for
libel. 74. Privileges in action for libel. A civil action cannot
be maintained against any person, firm or corporation, for the
publication of a fair and true report of any judicial
proceeding, legislative proceeding or other official proceeding,
or for any heading of the report which is a fair and true
headnote of the statement published. This section does not
apply to a libel contained in any other matter added by any
person concerned in the publication; or in the report of
anything said or done at the time and place of such a
proceeding which was not a part thereof.
3 Re: unanimous signed Workers Compensation Board Decision
“The instant matter involves a claimant that was
the subject of a newspaper article that named him by name. The
employer put the article up on its website and left it in the
common area so that it was made available. The employer’s own
witness, the safety instructor, indicated that the way the article
was made available for all to see could be considered

5

5
Compensation Board, ruled in favor of Petitioner
granting that an injury (or injuries) on duty occurred,
caused by said defamatory article.
On November 27, 2017 a Decision by New
York State Administrative Law Judge Donald
Gill under WCL 1204 after performing/allowing
numerous hearings, testimony, crossexaminations and discovery which the federal
courts have so far not, ruled5 “Now with all
that said, it’s hard for the court not to note
that in my personal opinion that the Transit
Authority’s treatment of the employee, of Mr.
Burke, in this case appears to be poor, to say
the very least. If I were a Labor Law Judge or

harassment. The Board Panel finds that the claimant was
exposed to stress greater than that which other similarly
situated workers experienced in the normal work environment.
Therefore the Board Panel finds, upon review of the record and
based upon a preponderance of evidence, the claimant had an
accident arising in and out of the course of employment.”
4 New York Workers' Compensation Law Section 120 Discrimination against employees. 120. Discrimination against
employees. It shall be unlawful for any employer or his or her
duly authorized agent to discharge or fail to reinstate
pursuant to section two hundred three-b of this chapter, or in
any other manner discriminate against an employee as to
his or her employment because such employee has claimed or
attempted to claim compensation from such employer, or
claimed or attempted to claim any benefits provided under this
chapter or because he or she has testified or is about to
testify in a proceeding under this chapter and no other valid
reason is shown to exist for such action by the employer.

5 The case file for NYS WCL 120 Burke v. NYCTA (Case #xxxxx-xxxx (Petitioners Social Security number) is 2035 pages,
available in full for the Court, ideally by electronic submission.

6

6
Arbitrator6 at the Transit Authority, I could
make a different decision than I am doing here
today. The problem is that I’m limited by
section 120.” and “So once again, though I am
hard pressed to find an explanation for what
appears to be a constant pattern of
mistreatment by the Transit Authority of Mr.
Burke in this matter, ...., Once again, I am
dismayed by — at the actions taken against him
that the Transit Authority allowed to occur to
Mr. Burke in this matter,
I do encourage
Mr. Burke to take whatever other legal actions
he can if he believes there’s a breach of
contract. There are other Courts to take it up
with and numerous other actions here. I
encourage Mr. Burke to take those actions as
well.” pages 52-53 and 58-59 of Certified
November 27, 2017 Hearing Transcript for
WCL 120 case Burke v. NYCT, please take
Judicial Notice.
It is as if ALJ Gill is speaking directly to the
Supreme Court and himself requesting this Petition
be granted. To be clear, this was the only case
wherein there was actual Discovery, witnesses,
testimony, etc.. Unfortunately, as ALJ Gill himself
expressed in his Decision, he could only rule on if the
NYCT committed these clear, unambiguous,
unprecedented, acts of Retaliation (ongoing as we
6 NYCT has blocked any hearing for the four (4) grievances filed
in this matter from going before the Binding Contract Arbitrator
at NYCT for four years for one, three years for two and two and
a half for the fourth, without reason or cause, other than
Retaliation under Section 704 and to violate Petitioner’s First
Amendment Right to Petition the Government for Redress of
Grievances.

7

7
speak) as Retaliation for filing a WC case. He found
they did not7. Is that because, clearly and
unambiguously, the acts ALJ Gill clearly ruled as
Retaliatory and Harassing, albeit not for WC filings,
are due strictly to the filing of the instant case? There
is no alternate explanation.
There are primarily three tranches of overt,
notorious, unprecedented acts of Retaliation,
committed, in this case, intentionally, concertedly,
injuriously, upon this Whistle-Blower engaged in
Protected Activity. 1) The assaults and harassments
while operating trains in passenger service in April of
2014, resulting in diagnosed, and treated injuries
(PTSD, etc.) loss of income, after running out of, and
using up, accumulated sick time, full loss of seniority
benefits, and requirements that a job title never
applied for, with entirely different requirements, was
the only option to continue in employment at NYCT.
2) The intentionally, concertedly, anonymously,
unprecedented Defamatory per se, injurious as a
matter of record, admittedly untruthful, hit piece
published by the New York Post, resulting in a
substantiated WC claim. 3) The ongoing wage and
benefit theft/conversion/Retaliation for filing the
instant case. The vast majority of the back
wages/benefits owed are contractual ‘Differential’
monies to cover the difference between Workers
Compensation payments/awards and the injured
workers full pay. NYCTA also owes two weeks (80
hours at full time, five days a week, 8 hour days, as
per contract and as performed) and three hours of OT
the Friday of the first week (March 23-27, 2015) and
7 That finding is being appealed to the Third Judicial
Department.

8

8
3.5 hours, the following week (March 30-April 3) .5
hours on that Wednesday and three hours on that
Friday. Three hours, in addition, were worked on the
following Monday, April 6 2015 prior to reporting the
now substantiated on duty (and caused by NYCT)
injury. For that IOD Petitioner signed a contractual
‘Waiver and Election’ that requires the NYCT to pay
out any accumulated sick and/or vacation pay. This
was paid out for the prior 2014 IOD but not the 2015
post filing of instant case filing, without any
reason/pretext, other than Retaliation under Section
704. In addition, contractual ‘60% sick pay’ at 60 days
would have been due and payable, on the contractual
biweekly basis. This was paid for the 2014 injury, but
not the substantiated 2015 injury they caused,
Retaliation under Section 704 again. Finally, as far
as pay anyway, is the owed contractual ‘Differential’
(merely the difference between any paid WC
payments and full (40 hours per week) wages. Again
unpaid. Contractual Grievances were filed and
remain moribund/ blocked by NYCT, in a perfect
violation of both the contract and the First
Amendment8 that so well shielded NYP Holdings,
Inc. Defamation per se (“and to petition the
Government for a redress of grievances”).

REASONS FOR GRANTING THE WRIT
So why would this concern the Supreme Court? First,
Rule 10 “or has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure
by a lower court, as to call for an exercise of this Court’s
8 Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a
redress of grievances.

9

9

9

supervisory power;”. 1) We now have case law wherein an
employer, for reasons of Retaliation, Discrimination, Racism,
etc., can now brutally, dangerously, assault a Safety Sensitive
Civil Servant, or any other Employee, in the lawful
performance of their duties, and there is no Remedy, at least
under Title VII of the Civil Rights Act10. 2) In addition an
Employer may now brutally, anonymously, conceitedly,
intentionally, Defame (per se) an Employee, to the point of
injury, strictly as Retaliation for Protected Activity.
3) What may be the most corrupt and egregious,
striking at the heart of our economy, an Employer
may now completely halt the payments of any back
wages, overtime, sick, vacation and/or any and all
promised, previously paid contractual and/or
statutory benefits, at least in the Second Circuit
catchment. While no doubt the law abiding,
respectable employers in, for example, the Judicial
Branch, Federal, State, or Local, or the Legislative

9 The Second Circuit stated in their Summary Order “RULINGS
BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL
EFFECT.” Please see Unpublished Opinions: A Convenient
Means to an Unconstitutional End ERICA S.WEISGERBER “
10 SEC. 2000e-3. [Section 704] (a) Discrimination for making
charges, testifying, assisting, or participating in enforcement
proceedings. It shall be an unlawful employment practice for an
employer to discriminate against any of his employees or
applicants for employment, for an employment agency, or joint
labor-management committee controlling apprenticeship or
other training or retraining, including on—the-job training
programs, to discriminate against any individual, or for a labor
organization to discriminate against any member thereof or
applicant for membership, because he has opposed any practice
made an unlawful employment practice by this subchapter, or
because he has made a charge, testified, assisted, or
participated in any manner in an investigation, proceeding, or
hearing under this subchapter.

10

10
Branch, would never think to commit these crimes
against their own workers, but clearly, at least one
Employer (NYCT) in the Executive Branch of New
York State, and/or any other Employer(s) Public or
Private11, with the schadenfreude/aptitude to commit
these acts of Retaliation, is/are now free to do so (see
for example the Equal Protection Clause12). There
are several procedural issues the Supreme Court may
want to consider addressing. There seems to be
reviewable issues of incorrect ‘gotcha’ by the lower
Courts with regard to the Fair Labor Standards Act.
Apparently it is now mooted or unable to be used
unless an unknown formulaic recital is employed,
with no ability for a Plaintiff to Amend any
Complaint to conform with same. Petitioner informed
11 Admittedly, private employers, and their employees, in NYS
are covered under NYS Labor Law 190, wherein a private
employer who committed the crimes of wage/benefit theft would
be liable for up to treble damages. Of course this is a great
disincentive for (private) employers in New York State to
commit these acts. In what Petitioner contends is facially and as
applied unconstitutional (clear violation of Equal Protection
Clause), and after NYCT quoted this law in their papers to deny
remedy under that law, standing was/is unambiguously
established, and Petitioner repeatedly requested the right to
add the NYS Attorney General as a party, to properly challenge
the law. Neither the District or the Circuit Court addressed this
request, or ruled on the law’s constitutionality. See Marbury v.
Madison, 5 U.S. (1 Cranch) 137 (1803).
12 All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the
equal protection of the laws, [emphasis added]

11

11
the Court (The EDNY) of the (ongoing as of today)
Wage Theft, strictly for reason(s) of Retaliation for
filing the instant case, as soon as it occurred, after
the filing of the Complaint, in the as of right
Amended Complaint. In that document Wage Theft
and the inextricably related Fraud (i.e. Wage/Benefit
Fraud) were added, and within enumerated
paragraph 81 “The NYCTA has not paid Burke for
the two weeks at PS248 or the 12 sick days, 3
vacation weeks or 9 hours overtime work this year.”
NYCTA, contractually, since prior to Petitioner’s
employment, has paid on a biweekly basis. All jobs
for Station Agent, and Train Operator, are scheduled,
and paid, on a minimum 8 hour a day basis, with
many having built in overtime. All jobs are scheduled
for 5 days a week, with various days off. In later
pleadings, such as the Second Amended Complaint
Opposition to NYCTAS’s MTD and the Second
Circuit Briefs, it was clarified that for the only two
week pay period worked (also two calendar weeks)
Petitioner worked the full 8013 hours plus the 6.5
hours of OT (divided into 3 hours the Friday of the
first week and .5 on Wednesday of the second week
and 3 on the Friday of the second week, payable at
time and a half, i.e 9.75 hours pay at Train Operator
top pay). There is no construction wherein Petitioner

13 Within Petitioner’s Opposition to NYCTA’s (second) Motion to
Dismiss document 42 dated 04/14/2017 page 16 “Please see
Decision by Unemployment Insurance Appeal Board (att.) page
2 pg6 “The issue is the nearly two weeks of work he performed
during the first and second quarters of 2015, for which he did
not receive his wages. The employer's witness produced time
records reflecting the days that the claimant worked. She also
conceded that the claimant had not received his pay check and
had no explanation for why a check had not been issued to him.”

12

12
did not work 40 hours, plus the overtime, each of
those two weeks. Since Defendant has affirmatively
chosen to Defraud the Petitioner they intentionally
injured and they have paid none of the monies owed
(other than Workers Compensation) by paying none
of the 80 hours plus 9.75 hours OT with bonus, how is
it possible to state, or believe, that at least 40 hours
in one of the weeks was not worked? The Second
Circuit quoted case law14 to justify their
evisceration/mooting of Fair Labor Standards Act
of 1938 29 U.S.C. § 203, which they chose to not
follow in any aspect. In Lundy “The district court
granted leave to replead the FLSA overtime claims
that were dismissed without prejudice but cautioned
that any future complaint “should contain
significantly more factual detail concerning who the
named Plaintiffs are where they worked in what
capacity they worked the types of schedules they
typically or periodically worked and any collective
bargaining agreements they may have been subject
to Special App. 18. The district court said that it
would not be impressed if the Third Amended
Complaint prattle on for another 217 paragraphs"
solely for the sake of repeating various conclusory
allegations many times over” Id. at 19.” Which gets to
the still on the table request for Leave to Amend the
Second Amended Complaint, within the opposition to
NYCTA’s Motion to Dismiss and the Principle Brief
14 “Given that Burke did not allege “a single workweek in which
[he] worked at least 40 hours and also worked uncompensated
time in excess of 40 hours,” his claims in this regard are
insufficient. See Lundy v. Catholic Health Sys. of Long Island
Inc., 711 F.3d 106, 114 14 (2d Cir. 2013); see also Nakahata v.
New York-Presbyterian Healthcare Sys., 723 F.3d 15 192, 201
(2d Cir. 2013).”Second Circuit Mandate page 7

13

13
page 2715. In Lundy Plaintiff was granted two forms
of relief, additional Leave to Amend, denied this
Petitioner, and a specific demand for specific facts.
None occurred in the instant case. In Petitioner’s
Opposition to NYCTA’s Motion to Dismiss “Petitioner
believes there may be a need for a Third Amended
Complaint, in order to comport with any new Order
and to properly notice Defendant NYCTA of claims,
incorporating WCB Decision on issues of fact
regarding workplace harassment/defamation/hostile
workplace,...” page 9. This request was ignored, with
no reason given, like the similar request to add the
NYS Attorney General “17 Petitioner requests to be
allowed to add NY Attorney General as
Defendant/Required Party, in order to challenge the
constitutionality of LL 190 under the Equal
Protection Clause of the 14th Amendment. Petitioner
does not believe an Authority (i.e. not an ‘agency’)
was intended to be covered in this provision, as well.”
on page 22 of the same document. The Second Circuit
alleged that Petitioner did not include Constructive
Termination/Discharge until Briefs. This is false, see
So how did this ‘non-precedential’ Summary
Order change the case law for all New Yorkers? Well,
for all New York Public Employees, there is now no
access to (Federal) Court(s) for a Whistle-Blower who
is having his, or her wages/benefits stolen strictly as
Retaliation for Protected Activity. No protection
under Title VII or FLSA. No entitlement to even the
minimum wage for hours worked, no OT, no vacation,
sick, differential, etc., due to NYS Labor Law 190.

15 “Petitioner requests the Panel consider allowing the
Transport Workers Union Local 100 as a necessary party in any
Third Amended Complaint.”

